Department of Homeland Security
   Ofﬁce of Inspector General

        DHS' Progress in Federal Incident 

             Management Planning 


                   (Redacted)
 





OIG-10-58                            February 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      February 22, 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses DHS’ efforts to develop incident management plans associated with
the 15 National Planning Scenarios. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................6
 


     Status of Federal Incident Management Planning .........................................................6
 

     Recommendation .........................................................................................................10
 

     Management Comments and OIG Analysis ................................................................10
 


     Projecting the Completion of Plans .............................................................................11 

     Recommendation .........................................................................................................16
 

     Management Comments and OIG Analysis ................................................................16
 


     The Federal Incident Management Plan Repository....................................................17
 

     Recommendation .........................................................................................................19
 

     Management Comments and OIG Analysis ................................................................19
 


Appendices
     Appendix A:           Purpose, Scope and Methodology........................................................20
 

     Appendix B:           Management Comments to the Draft Report .......................................21
 

     Appendix C:           Overview of National Planning Scenarios...........................................25 

     Appendix D:           Federal Interagency Providing Operations Plans for Scenario 12 .......29 

     Appendix E:           Incident Management Planning Team .................................................30 

     Appendix F:           Major Contributors to this Report........................................................31 

     Appendix G:           Report Distribution ..............................................................................32 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Department of Homeland Security is making progress
                preparing federal incident management plans associated with the
                National Planning Scenarios, but a full set of plans has not yet
                been completed for any of the scenarios. This is partly because of
                the time required to develop and implement the Integrated
                Planning System that guides the federal planning process.

                A strategic guidance statement, strategic plan, and concept of
                operations plan are to be developed for each of the eight key
                scenario sets. Thereafter, operations plans from every department
                and agency with responsibilities enumerated in the concept of
                operations plan are due to the Domestic Readiness Group 120 days
                after the approval of the concept of operations plan. Thus far, five
                of the eight key scenario sets have approved strategic guidance
                statements, while four have approved strategic plans. One concept
                of operations plan, the Terrorist Use of Explosives, has been
                approved by the DHS Secretary and operations plans for this
                scenario were due to the Domestic Readiness Group by September
                2009. A repository for federal incident management plans has
                been established using the Homeland Security Information
                Network, but access is currently limited to only federal officials.

                                                            key scenario sets and
                established planning timelines, we project plans for all the
                scenarios could be completed by                   . However, we
                note that the concept of operations plans for the
                                 scenario is        . Additionally, strategic
                guidance statement planning for the Natural Disaster, Cyber
                Attack, and Pandemic Influenza scenario sets has not yet begun.
                Enlisting federal departments and agencies that have Emergency
                Support Function coordinating roles within the National Response
                Framework to lead planning efforts for specific scenarios
                concurrently could accelerate the completion of plans.




                DHS’ Progress in Federal Incident Management Planning 


                                       Page 1 

Background
                          The National Response Framework 1 describes planning as the
                          cornerstone of national preparedness and a critical element to
                          respond to a disaster or emergency. Planning provides three
                          principal benefits: (1) it allows jurisdictions to influence the
                          course of events in an emergency by determining in advance the
                          actions, policies, and processes that will be followed, (2) it guides
                          other preparedness activities, and (3) it contributes to unity of
                          effort by providing a common blueprint for activity in the event of
                          an emergency. Planning is a foundational element of both
                          preparedness and response and thus is an essential homeland
                          security activity.

                          The importance of incident management planning was realized
                          during the examination of the failed federal response to Hurricane
                          Katrina and was underscored in the subsequent White House
                          report. 2 The report concluded, “Insufficient planning, training, and
                          interagency coordination are not problems that began and ended
                          with Hurricane Katrina. The storm demonstrated the need for
                          greater integration and synchronization of preparedness efforts, not
                          only throughout the Federal government, but also with the State and
                          local governments and the private and non-profit sectors as well.”

                          The White House report recommended that the “Department of
                          Homeland Security (DHS) lead an interagency effort to develop
                          and resource a deliberative, integrated federal planning and
                          execution system to meet the requirements of the revised National
                          Response Plan.” It also put in motion a number of government
                          actions meant to improve response planning, including the
                          advancement of credible planning scenarios depicting the range of
                          potential terrorist attacks, natural disasters, and related impacts
                          facing our Nation.

                          Congress enacted the Post-Katrina Emergency Management
                          Reform Act of 2006 to address shortcomings identified in the
                          preparation for and response to Hurricane Katrina. 3 The
                          legislation enhanced the Federal Emergency Management
                          Agency’s (FEMA) authority and stature within DHS and charged it

1
  The National Response Framework replaced the National Response Plan in January 2008 as the guide to
how the Nation conducts all-hazards response. It recognizes key lessons learned from Hurricane Katrina
and focuses on how the federal government is organized to support communities and states in response to
catastrophic incidents.
2
  The White House, The Federal Response to Hurricane Katrina: Lessons Learned, February 2006
3
  Post-Katrina Emergency Management Reform Act of 2006 (Public Law 109–295), October 4, 2006


                         DHS’ Progress in Federal Incident Management Planning 


                                                 Page 2 

                         with leading the Nation’s efforts to prepare for, protect against,
                         respond to, recover from, and mitigate the risk of natural disasters,
                         acts of terrorism, and other manmade disasters, including
                         catastrophic incidents. 4 It also provided that the FEMA
                         Administrator may develop, in coordination with the heads of
                         appropriate federal agencies and the FEMA National Advisory
                         Council, planning scenarios that reflect the relative risk
                         requirements presented by all hazards.

                         DHS released the National Preparedness Guidelines in September
                         2007, as part of the effort to further advance Homeland Security
                         Presidential Directive–8. 5 The National Preparedness Guidelines
                         define what it means for the Nation to be prepared for all hazards.
                         One of the four critical elements of the National Preparedness
                         Guidelines involves National Planning Scenarios, which depict a
                         diverse set of high-consequence threat scenarios of both potential
                         terrorist attacks and natural disasters. (See appendix C for an
                         overview of the National Planning Scenarios.)

                         The 15 National Planning Scenarios were developed by the
                         Homeland Security Council, in partnership with DHS, other
                         federal departments and agencies, and state, local, tribal, and
                         territorial governments. The Homeland Security Council was
                         established by Homeland Security Presidential Directive–1 to
                         coordinate all homeland security-related activities and policies
                         among executive departments and agencies.

                         Collectively, the scenarios are designed to focus contingency
                         planning for homeland security preparedness work at all levels of
                         government and with the private sector. The scenarios form the
                         basis for coordinated federal planning, training, exercises, and
                         grant investments needed to prepare for all types of emergencies.
                         The Homeland Security Council compressed the 15 National
                         Planning Scenarios into 8 key scenario sets in October 2007 to
                         integrate planning for like events and to conduct cross-cutting
                         capability development. Figure 1 lists the 15 National Planning
                         Scenarios as they are presented in the National Preparedness
                         Guidelines.


4
  FEMA was an independent, Cabinet-level agency reporting directly to the President prior to becoming
part of DHS in March 2003. The Post-Katrina Emergency Management Reform Act enhanced FEMA’s
authority by designating the FEMA Administrator as the principal emergency management advisor to the
President and making FEMA a distinct agency within DHS.
5
  Homeland Security Presidential Directive–8 was issued in December 2003 and directed the DHS
Secretary to develop a national domestic all-hazards preparedness goal.


                         DHS’ Progress in Federal Incident Management Planning

                                                Page 3
                          Figure 1. National Planning Scenarios

                            Improvised Nuclear Device             Major Earthquake
                            Aerosol Anthrax                       Major Hurricane
                            Pandemic Influenza                    Radiological Dispersal Device
                            Plague                                Improvised Explosive Device 6
                            Blister Agent                         Food Contamination
                            Toxic Industrial Chemicals            Foreign Animal Disease
                            Nerve Agent                           Cyber Attack
                            Chlorine Tank Explosion

                          President Bush approved Annex 1 to Homeland Security
                          Presidential Directive–8 in December 2007, which formally
                          established a standard and comprehensive approach to national
                          planning. It directed the DHS Secretary to lead the effort to
                          develop, in coordination with the heads of federal agencies with a
                          role in homeland security, an Integrated Planning System followed
                          by a series of related planning documents for each national
                          planning scenario. It also established the timelines for developing
                          the family of plans beginning with the strategic plan. Figure 2
                          describes the family of incident management plans mandated by
                          Annex 1 to Homeland Security Presidential Directive–8, how they
                          relate to one another, and the timelines for developing each plan
                          after the strategic guidance statement is finalized.




6
 In July 2008, the Improvised Explosive Device scenario was renamed the Terrorist Use of Explosives
scenario in order to align with Homeland Security Presidential Directive–19. Hereafter, the scenario will
be referred to as the Terrorist Use of Explosives scenario.


                          DHS’ Progress in Federal Incident Management Planning

                                                  Page 4
                         Figure 2. Family of Federal Incident Management Plans




       STRATEGIC GUIDANCE
              STATEMENT
   - Outlines strategic priorities,
   broad national strategic
   objectives, and basic
   assumptions; describes the
   envisioned end-state; and
   establishes the general means
   necessary to accomplish that end.

                              STRATEGIC PLAN
     NO Deadline       - Defines the mission, identifies
                       authorities, delineates roles and
                       responsibilities, establishes
                       mission essential tasks,
                       determines required and priority
                       capabilities, and develops
                       performance and effectiveness
                       measures.

                                                      CONCEPT PLAN
                    Due 90 Days After       - Describes the concept of
                     DHS Secretary          operations for integrating and
                   Approves Strategic       synchronizing existing federal
                   Guidance Statement       capabilities to accomplish the
                                            mission essential tasks, and
                                            describes how federal capabilities
                                            will be integrated into and support
                                            regional, state, and local plans.

                                                                         OPERATIONS PLAN
                                                                  - Identifies detailed resource,
                                      Due 180 Days After
                                                                  personnel, and asset allocations.
                                        DHS Secretary
                                                                  - Turns strategic priorities into
                                    Approves Strategic Plan
                                                                  operational execution.
                                                                  - Fully describes concept of
                                                                  operations, specific roles and
                                                                  responsibilities, tasks, integration,
                                                                  and actions required
                                                                  - Supporting functional annexes
                                                                  as appropriate.

                                                           Due 120 Days After DHS Secretary
                                                            Approves Concept of Operations
                                                                        Plan
 Source: DHS Office of Operations Coordination and Planning PowerPoint Presentation and Annex 1 to
Homeland Security Presidential Directive–8



                        DHS’ Progress in Federal Incident Management Planning 


                                                Page 5

Results of Audit 

        Status of Federal Incident Management Planning
                The development of federal incident management plans that address the
                gravest dangers facing our Nation is progressing, but a full set of plans for
                any single scenario has yet to be completed partly because of the time
                required to develop and implement the Integrated Planning System. A
                complete set of plans for each planning scenario includes (1) a strategic
                guidance statement, (2) a strategic plan, (3) a concept of operations plan,
                and (4) operations plans from every department and agency with
                responsibilities enumerated in the concept of operations plan. DHS is
                addressing the scenarios based on planning priorities set by the Homeland
                Security Council Deputies Committee and the Domestic Readiness Group,
                interagency policy groups chaired by White House staff. 7

                         Strategic and Concept of Operations Plans

                         Five of the eight key scenario sets have approved strategic
                         guidance statements and four have approved strategic plans. The
                         concept of operations plan for the Terrorist Use of Explosives
                         scenario was approved by the DHS Secretary in May 2009.
                         Operations plans from federal departments and agencies with
                         responsibilities enumerated in this plan were due to the Domestic
                         Readiness Group by September 26, 2009. The concept of
                         operations plan for the                              scenario is
                             and was expected to be completed in              . The strategic
                         plan for the                  scenario is also         , and DHS
                         reports the                           has been          due to the
                         review currently underway regarding Homeland Security
                         Presidential Directive–8. Concept of operations plans for the
                         Biological and Radiological Attack scenarios are both expected to
                         be completed in                , based on the timelines established
                         by the Integrated Planning System.

                         Strategic plans are to be completed 90 days after the strategic
                         guidance statements, and concept of operations plans are to be
                         completed 180 days after the strategic plans. Figure 3 shows the
                         status of strategic guidance statements, strategic plans, and concept
                         of operations plans for each of the eight key scenario sets.


7
 The Homeland Security Council Deputies Committee serves as the senior sub-Cabinet interagency forum
for policy issues affecting homeland security. The Domestic Readiness Group convenes regularly to
develop and coordinate domestic preparedness, response, and incident management policy.


                        DHS’ Progress in Federal Incident Management Planning

                                               Page 6
                            Figure 3. Status of Strategic and Concept of Operations Plans (As of
                            November 2009)


                                                     Strategic Guidance                                  Concept of Operations
                         National Planning                                         Strategic Plan
Key Scenario Sets                                        Statement                                               Plan
                             Scenarios
                                                      Start            Final      Start       Final         Start         Final
Explosives Attack    Terrorist Use of Explosives     3/7/2008     8/11/2008      7/8/2008    11/5/2008   10/16/2008      5/29/2009

 Nuclear Attack      Improvised Nuclear Device       8/1/2008     9/26/2008     8/13/2008    1/8/2009

                     Aerosol Anthrax

                     Plague
Biological Attack                                   10/8/2008     1/8/2009      11/5/2008    7/20/2009
                     Food Contamination

                     Foreign Animal Disease

  Radiological       Radiological Dispersal
                                                    10/29/2008    1/8/2009      11/24/2008   7/21/2009
    Attack           Devices

                     Blister Agent

                     Toxic Industrial Chemicals
Chemical Attack                                     12/8/2008     6/26/2009 9
                     Nerve Agent

                     Chlorine Tank Explosion

                     Major Earthquake
Natural Disaster
                     Major Hurricane                                                                     12/16/2008 10

  Cyber Attack       Cyber Attack
   Pandemic
                     Pandemic Influenza
   Influenza




          8
            The concept of operations plan for the Nuclear Attack scenario set is expected 180 days after the strategic
          plan, which was approved on January 8, 2009. FEMA began working on the concept of operations plan for
          this scenario in                          prior to the approval of the strategic plan.
          9
            In response to our draft report, DHS’ Office of Operations Coordination and Planning provided evidence
          that the strategic guidance statement for the Chemical Attack scenario set was completed on June 26, 2009,
          following the end of our fieldwork.
          10
             The Domestic Readiness Group directed FEMA in 2008 to begin developing a concept of operations plan
          for the Major Hurricane scenario, prior to the approval of the strategic plan, to prepare for the 2009
          hurricane season.


                                     DHS’ Progress in Federal Incident Management Planning

                                                              Page 7
                         Operations Plans

                         Operations plans from every department and agency with
                         responsibilities enumerated in a concept of operations plan are due
                         to the Domestic Readiness Group 120 days after the concept of
                         operations plan is approved by the DHS Secretary. Federal
                         departments and agencies can address one or more scenario sets
                         with a general operations plan when their roles and responsibilities
                         are the same. Operations plans are vital because they identify
                         detailed resources, personnel, assets and specific roles,
                         responsibilities, and actions for each federal department and
                         agency responding to an incident or emergency. DHS Secretary
                         Napolitano approved the Terrorist Use of Explosives concept of
                         operations plan on May 29, 2009. Operations plans from
                         federal departments and agencies were due to the Domestic
                         Readiness Group in September 2009. (See appendix D for a list of
                         departments and agencies that are required to have operations
                         plans for the Terrorist Use of Explosives scenario.)

                         The departments and agencies responsible for developing
                         operations plans for the remaining scenarios are formally identified
                         when the concept of operations plans are finalized. It is important
                         to note that federal departments and agencies may already have
                         operations plans for certain scenarios. 11 The Integrated Planning
                         System does not require that existing operations plans be redrafted.
                         Rather, departments and agencies with existing operations plans
                         must ensure that the plans are compatible with the strategic and
                         concept of operations plans developed using the Integrated
                         Planning System.

                         Performance measures that include quantifiable indicators,
                         statistics, or metrics to gauge department or agency effectiveness
                         may be required for operations plans. For example, performance
                         and effectiveness measures are a stated requirement in the
                         Biological Attack scenario strategic plan. This requirement will
                         likely mean that departments and agencies will have to review and
                         modify operations plans developed prior to the implementation of
                         the Integrated Planning System.

                         DHS officials told us that no one within DHS has been assigned
                         the responsibility for monitoring the development of federal

11
  Prior to the implementation of the Integrated Planning System in June 2008 and between September 2006
and December 2007, the federal interagency community developed incident response plans for the
Improvised Nuclear Device, Terrorist Use of Explosives, Pandemic Influenza, Radiological Dispersal
Device, Major Hurricane, and Cyber Attack scenarios.


                        DHS’ Progress in Federal Incident Management Planning

                                                Page 8
                           operations plans. However, ensuring that operations plans contain
                           performance measures and fulfill the requirements outlined in the
                           Integrated Planning System is important for evaluating current
                           response capabilities. Monitoring the development of operations
                           plans and providing guidance to facilitate interagency compliance
                           with the Integrated Planning System, in addition to the
                           incorporation of performance and effectiveness measures in the
                           operations plans, would help ensure the plans address and measure
                           desired objectives and priority capabilities for each scenario.

                           Launching the Integrated Planning System

                           The time required developing and implementing the Integrated
                           Planning System, which guides the federal planning process,
                           impacted the initiation of planning for the National Planning
                           Scenarios. DHS officials told us that the planning resources
                           required to address the Period of Heightened Alert 12 and the
                           Southwest Border Initiative also impacted planning for the
                           National Planning Scenarios.

                           The Integrated Planning System was expected to be finalized in
                           February 2008, but President Bush did not formally approve the
                           system until nearly a year later in January 2009. DHS began
                           developing the Integrated Planning System in December 2007 and
                           implemented an interim version in June 2008. DHS officials told
                           us that bringing the federal departments and agencies together to
                           develop and agree upon a standardized planning process and
                           doctrine was a significant challenge and achievement.

                           The Period of Heightened Alert and the Southwest Border
                           Initiative also impacted planning for the National Planning
                           Scenarios because planning resources had to be redirected to meet
                           the planning requisites for these initiatives. Planning for the
                           Period of Heightened Alert began in early 2008, and the Homeland
                           Security Council directed the federal interagency community to
                           have significant planning completed by early July 2008. Plans
                           were designed to ensure that the federal government was prepared
                           to respond to any major incident during the Presidential transition
                           period. Planning that supported the Southwest Border Initiative
                           was designed to suppress the illegal flow of weapons and cash
                           from the United States into Mexico and drugs and contraband from


12
  DHS designated the time period between August 1, 2008, and July 31, 2009, as a “Period of Heightened
Alert” because of activities associated with the 2008 Presidential election, such as the national conventions,
Election Day, the Presidential inauguration, and the Presidential transition period.


                          DHS’ Progress in Federal Incident Management Planning

                                                   Page 9
     Mexico into the United States by placing more personnel and
     technology assets on the southwest border.

     Conclusion

     Federal incident management planning for the National Planning
     Scenarios is progressing, but much work remains to be done. The
     concept of operations plan for the
     scenario is           and was expected to be completed in
          . The concept of operations plan for the Biological Attack
     scenario is due in                . Moreover, planning for the
     concept of operations plan for the Radiological Attack scenario
                   , but the plan is due in              . Operations
     plans from federal departments and agencies for the first scenario,
     the Terrorist Use of Explosives, were due to the Domestic
     Readiness Group by September 26, 2009. The requirement to
     include performance and effectiveness measures in the Biological
     Attack scenario operations plans may require departments and
     agencies to modify existing plans. Providing guidance on how to
     incorporate quantifiable performance and effectiveness measures
     into operations plans would help ensure that the plans contain
     desired objectives and identify priority capabilities.


Recommendation
     We recommend that the Director for Operations Coordination and
     Planning:

     Recommendation #1: Oversee the development of operations
     plans and collaborate with FEMA’s Operational Planning Branch
     to provide guidance to federal departments and agencies to
     facilitate the incorporation of performance and effectiveness
     measures into operations plans.


Management Comments and OIG Analysis
     Recommendation 1: FEMA’s Office of Policy and Program
     Analysis concurred with this recommendation. DHS’ Office for
     Operations Coordination and Planning explained in their response
     to our draft report that the Integrated Planning System is currently
     under review and the requirement to incorporate performance and
     effectiveness measures into operations plans will be addressed
     during the review process.


    DHS’ Progress in Federal Incident Management Planning

                          Page 10
            We consider this recommendation resolved because steps are being
            taken to implement it; however, it will remain open until evidence
            is provided that it has been fully implemented.


Projecting the Completion of Plans
     We project that plans for all scenarios could be completed by
                                                       key scenario sets and
     established planning timelines outlined in Annex 1 to Homeland Security
     Presidential Directive–8. DHS’ Office of Operations Coordination and
     Planning is leading the development of strategic guidance statements and
     strategic plans, and FEMA’s Operational Planning Branch is leading the
     development of concept of operations plans. According to the National
     Response Framework, planning for the National Planning Scenarios has
     been accorded the highest priority. Enlisting federal departments and
     agencies that have Emergency Support Function coordinating roles in the
     National Response Framework to lead planning efforts for specific
     scenarios concurrently could accelerate the completion of plans for the
     remaining scenarios.

            Timelines for Developing Plans

            Annex 1 to Homeland Security Presidential Directive–8 establishes
            the timelines for developing the family of plans beginning with the
            strategic plan. Completing the family of plans is expected to take
            390 days following the completion of the strategic guidance
            statement. DHS officials told us that DHS Secretary Chertoff
            decided that DHS’ Office of Operations Coordination and Planning
            would lead the development of strategic guidance statements and
            strategic plans, and FEMA’s Operational Planning Branch would
            lead the development of concept of operations plans.

            Projections

            The average number of days between initiating strategic guidance
            statement planning for the first four National Planning Scenario
            sets was 78 days. Figure 4 illustrates the average number of days
            between initiating planning for the first four key scenario sets. The
            average time to complete the strategic guidance statements was 95
            days. Figure 5 illustrates how long it took to complete each
            strategic guidance statement for the first four key scenario sets.




           DHS’ Progress in Federal Incident Management Planning

                                 Page 11
Figure 4. Average Number of Days Between Plan Initiation for
Strategic Guidance Statements




Figure 5. Number of Days to Complete Strategic Guidance
Statements



 160
 140
 120
 100         158
  80
  60                                        93
                                                           74
  40                          57
  20
   0
       Terrorist Use      Nuclear      Biological    Radiological
       of Explosives       Attack       Attack         Attack

                       Strategic Guidance Statements




                             . Figure 6 illustrates our projections
for completing all plans, which will serve as our baseline for
monitoring DHS’ progress towards completing federal incident
management plans for the 15 National Planning Scenarios.




DHS’ Progress in Federal Incident Management Planning 


                        Page 12 

                                      Figure 6. Projected Completion Dates (As of November 2009)

                                    Strategic Guidance                               Concept of Operations
Key Scenario   National Planning                                Strategic Plan                                   Operations Plan
                                        Statement                                            Plan
    Sets           Scenarios
                                     Start        Final       Start        Final       Start        Final       Start       Final
Explosives     Terrorist Use of
                                    3/7/2008    8/11/2008    7/8/2008    11/5/2008   10/16/2008   5/29/2009   5/30/2009   9/26/2009
 Attack        Explosives
 Nuclear       Improvised
                                    8/1/2008    9/26/2008   8/13/2008    1/8/2009
 Attack        Nuclear Device
               Aerosol Anthrax
               Plague
 Biological    Food                10/8/2008    1/8/2009    11/5/2008    7/20/2009
  Attack       Contamination
               Foreign Animal
               Disease
Radiological   Radiological
                                   10/29/2008   1/8/2009    11/24/2008   7/21/2009
  Attack       Dispersal Devices
               Blister Agent
               Toxic Industrial
 Chemical      Chemicals
                                   12/8/2008    6/26/2009
  Attack       Nerve Agent
               Chlorine Tank
               Explosion
  Natural      Major Earthquake
  Disaster     Major Hurricane
   Cyber
               Cyber Attack
  Attack
 Pandemic      Pandemic
 Influenza     Influenza
 LEGEND                    GREEN = PROJECTED DATES                                       BLACK = ACTUAL DATES


                                      The Interagency Planning Teams

                                      DHS’ Office of Operations Coordination and Planning relies upon
                                      participation from the Incident Management Planning Team and
                                      interagency subject matter experts to develop the strategic
                                      guidance statement and strategic plans for each key scenario set.
                                      The Incident Management Planning Team is composed of a core
                                      group of full-time senior planners (i.e., GS-14/15 with at least a
                                      Top Secret clearance) who are detailed to DHS from other federal
                                      departments and agencies for 1-year assignments. An on-call
                                      group of pre-identified senior planners from DHS and other
                                      departments and agencies can augment the core staff when
                                      necessary. (See appendix E for a list of departments and agencies
                                      that are participating members of the Incident Management
                                      Planning Team.)


                                     DHS’ Progress in Federal Incident Management Planning

                                                             Page 13
FEMA’s Operational Planning Branch also relies upon
participation from a federal interagency planning team, but
representatives who support FEMA planning efforts are not
detailed to FEMA. FEMA develops the concept of operations
plans for each scenario set through planning conferences that
include interagency representatives and contractors who facilitate
the planning process or provide subject matter expertise.

The Domestic Readiness Group set a planning goal that five
strategic guidance statements and four strategic plans be completed
by January 20, 2009. DHS and interagency officials told us the
demands placed on the planning teams to reach this goal were
tremendous. Planners were required to work on multiple plans at
the same time, and they often had to choose between incident
management planning meetings that were scheduled concurrently.
DHS officials told us that efforts are ongoing to address the
shortage of federal planners, and more than 1,000 people from
multiple departments and agencies have been successfully trained
on national planning by the Incident Management Planning Team
since 2006.

Accelerating the Completion of Scenario Plans

The National Response Framework underscores that planning for
the National Planning Scenarios has been accorded the highest
priority. It also describes Emergency Support Function
coordinating agencies as having ongoing responsibilities
throughout the preparedness, response, and recovery phases of
incident management to include pre-incident planning and
coordination. Enlisting federal departments and agencies that have
Emergency Support Function coordinating roles to lead planning
for the National Planning Scenarios could accelerate the
completion of plans for the remaining scenarios because planning
could be conducted concurrently. Figure 7 lists the remaining
planning scenarios along with the Emergency Support Function
coordinating agency for that scenario.




DHS’ Progress in Federal Incident Management Planning 


                       Page 14 

                  Figure 7. Coordinating Agencies

     Key Scenario Sets       National Planning Scenarios                    Lead Agencies
     Radiological Attack     Radiological Dispersal Devices                        DHS
                             Blister Agent
                             Toxic Industrial Chemicals
      Chemical Attack                                                Environmental Protection Agency
                             Nerve Agent
                             Chlorine Tank Explosion
                             Major Earthquake
      Natural Disaster                                                             FEMA
                             Major Hurricane
        Cyber Attack         Cyber Attack                                      White House
     Pandemic Influenza      Pandemic Influenza                         Health and Human Services


                           DHS is the coordinating department for all deliberate attacks
                           involving nuclear or radiological facilities or materials, including
                           improvised nuclear devices and radiological dispersal devices.
                           DHS, acting through FEMA, is also the coordinating department
                           for response to natural disasters.

                           The Environmental Protection Agency is the Emergency Support
                           Function coordinating agency for oil and hazardous materials
                           response, which includes accidentally or intentionally released
                           chemical substances. As such, this agency is well positioned to
                           lead planning efforts associated with the remaining Chemical
                           Attack scenario plans.

                           A recent White House review of cyberspace policy determined that
                           no single federal department or agency has a broad enough
                           perspective or authority to address the cybersecurity risks, which
                           pose some of the most serious economic and national security
                           challenges of the 21st century. 13 The review recommended that
                           the President appoint a White House cybersecurity policy official
                           to coordinate national cybersecurity policies and activities. The
                           goal is to develop a clear and authoritative cyber incident response
                           framework documented in a revised Cyber Incident Annex for the
                           National Response Framework.

                           The Department of Health and Human Services is the federal
                           government’s primary agency for the public health and medical

13
 The White House, Cyberspace Policy Review: Assuring a Trusted and Resilient Information and
Communications Infrastructure, May 2009


                           DHS’ Progress in Federal Incident Management Planning

                                                  Page 15
     preparation, planning, and response to a biological terrorism attack
     or incident. It has already taken steps to coordinate national
     planning for the Pandemic Influenza scenario by leading two
     interagency assessments of states’ Pandemic Influenza plans.
     Because of its role as the primary agency for planning and
     responding to biological scenarios and its previous efforts to
     coordinate national planning, the Department of Health and
     Human Services could lead the development of federal incident
     management plans for the Pandemic Influenza scenario.

     Conclusion

     We project that planning for all the scenarios could be completed
     by                                                           key
     scenario sets and established planning timelines. However, we
     note that DHS has not begun strategic guidance statement planning
     for the Natural Disaster and Cyber Attack scenario sets, which we
     projected should have been initiated months ago. The National
     Response Framework characterizes planning for the National
     Planning Scenarios as a high priority. Enlisting the Environmental
     Protection Agency, the White House, and the Department of
     Health and Human Services to lead planning efforts concurrently
     for the remaining scenarios could accelerate the completion of
     plans for the Chemical Attack, Cyber Attack, and Pandemic
     Influenza scenarios.


Recommendation
     We recommend that the Director for Operations Coordination and
     Planning and the Chief of FEMA’s Operational Planning Branch:

     Recommendation #2: Enlist and resource, as appropriate, federal
     departments and agencies that have coordinating roles for the
     Chemical Attack, Cyber Attack, and Pandemic Influenza scenarios,
     in order to pursue planning efforts for each scenario concurrently.


Management Comments and OIG Analysis
     Recommendation 2: FEMA’s Office of Policy and Program
     Analysis concurred with this recommendation. DHS’ Office for
     Operations Coordination and Planning explained in their response
     that a discussion on further increasing the roles and the planning
     capabilities of their interagency partners is an integral component


    DHS’ Progress in Federal Incident Management Planning

                          Page 16
            of the Quadrennial Homeland Security Review and the review of
            Homeland Security Presidential Directive–8. Additionally,
            planning has been put on hold since July 2009 due to the review of
            Homeland Security Presidential Directive–8, delaying the
            development of the Chemical Attack strategic plan and the Natural
            Disaster strategic guidance statement.

            We consider this recommendation resolved because steps are being
            taken to implement it; however, it will remain open until evidence
            is provided that it has been fully implemented.


The Federal Incident Management Plan Repository
     A repository for federal incident management plans was established in
     March 2009 using the Homeland Security Information Network. The
     purpose of the repository is to increase federal visibility, coordination,
     interoperability, and information sharing at the operational level. All
     unclassified federal plans relating to the National Planning Scenarios are
     to be placed in the repository, and classified plans will be maintained
     separately in the Homeland Security Data Network. Access to the
     repository is currently limited to federal officials with a role in homeland
     security.

            Establishing the Repository

            A DHS Office of Operations Coordination and Planning official
            told us that the Domestic Readiness Group tasked their office in
            February 2009 with establishing a repository for federal incident
            management plans. The Homeland Security Information Network
            was chosen as the platform to establish the repository in March
            2009. The Homeland Security Information Network is a virtual
            platform that enables sensitive but unclassified information sharing
            and collaboration among homeland security stakeholders,
            including federal, state, and local government representatives. The
            repository is expected to help address a key finding in the White
            House report about the federal response to Hurricane Katrina: “At
            the most fundamental level, part of the explanation for why the
            response to Katrina did not go as planned is that key decision-
            makers at all levels simply were not familiar with the plans.”

            The purpose of the repository is to enhance the effectiveness of
            operations to prevent, protect against, respond to, and recover from
            attacks and disasters. The overall goal is to achieve a coordinated
            approach to planning for major emergencies, disasters, and


            DHS’ Progress in Federal Incident Management Planning

                                  Page 17
catastrophes, and to identify response capabilities and conduct
exercises. When fully populated, the repository is anticipated to
contain more than 250 federal incident management plans relating
to the 15 National Planning Scenarios.

The repository will include all unclassified federal strategic and
concept of operations plans associated with the National Planning
Scenarios, as well as operations plans from federal departments
and agencies that have a role in homeland security. The decision
as to whether operations plans are added to the Homeland Security
Information Network is at the discretion of the department or
agency that prepared the plan. Classified plans are to be
maintained separately on the Homeland Security Data Network.
The Homeland Security Data Network is a classified wide-area
network for DHS and its components, with specific and controlled
interconnections to federal agencies that are involved in homeland
security.

According to the repository’s standard operating procedures,
operations plans are reviewed by the interagency to identify best
practices, seams, gaps, and overlaps. Issues involving discrepancies
or shortfalls in operations plans will be resolved by a work group
established by the Domestic Readiness Group and chaired by a
National Security Council staff member. The Integrated Planning
System provides that the DHS Secretary will also review operations
plans to identify gaps and seams, enhance unity of effort, and link
plans to exercises. This is important because the DHS Secretary
serves as the principal federal official for domestic incident
management and is responsible for coordinating the federal
government’s resources in operations responding to terrorist attacks
and major disasters.

Access and Participation

Access to the repository is currently limited to select federal
officials and controlled by the Domestic Readiness Group. Federal
departments and agencies involved in federal incident management
planning may designate up to five individuals for access to the
repository, and access will be provided by DHS once approved by
the Domestic Readiness Group. Currently, state, tribal, and local
government officials do not have access or provide plans to the
repository although they may have access to other areas of the
Homeland Security Information Network. Expanding access and
stakeholder participation in the repository is important because a
key lesson learned from the federal response to Hurricane Katrina


DHS’ Progress in Federal Incident Management Planning

                      Page 18
     is that integrating and synchronizing federal policies, strategies,
     and plans among all federal, state, local, private sector, and
     community efforts is imperative for a coordinated response.

     Conclusion

     A repository for federal incident management plans has been
     established using the Homeland Security Information Network, but
     access is currently limited to only federal officials. The repository
     can serve as the platform to help construct a unified homeland
     security system that advances national preparedness, but
     appropriate access and participation among all homeland security
     stakeholders, including state, tribal, and local government officials,
     and the private sector, needs to be expanded.


Recommendation
     We recommend that the Director for Operations Coordination and
     Planning:

     Recommendation #3: Develop procedures and protocols for
     expanding access to the federal incident management plan
     repository to all appropriate homeland security stakeholders,
     including state, tribal, and local governments, and the private sector.


Management Comments and OIG Analysis
     Recommendation 3: FEMA’s Office of Policy and Program
     Analysis concurred with this recommendation, and DHS’ Office
     for Operations Coordination and Planning is currently in the
     process of increasing membership to the federal incident
     management plan repository to include all appropriate homeland
     security stakeholders.

     We consider this recommendation resolved because initial steps
     are being taken to implement it. However, it will remain open
     until evidence is provided that it has been fully implemented.




    DHS’ Progress in Federal Incident Management Planning 


                           Page 19 

Appendix A
Purpose, Scope, and Methodology

                   The objectives of our audit were to (1) determine to what extent
                   the planning requisites mandated by Annex 1 to Homeland Security
                   Presidential Directive–8 have been fulfilled, and (2) develop a
                   baseline to measure progress in developing the federal incident
                   management plans that align with the National Planning Scenarios.

                   We conducted 18 interviews with DHS, FEMA, and interagency
                   officials, and examined documentation relating to federal planning,
                   including authorizing legislation and Presidential directives such as
                   the Integrated Planning System; federal incident management
                   plans; internal and external DHS communications; the Post-
                   Katrina Emergency Management Reform Act of 2006; the National
                   Response Framework and Incident Annexes; Annex 1 of Homeland
                   Security Presidential Directive–8; and Homeland Security
                   Planning Directive–5. We also reviewed reports on various
                   aspects of federal planning for the national planning scenarios
                   prepared by the U.S. Government Accountability Office.

                   We did not evaluate the utility of the finalized federal incident
                   management plans or the efficacy of the Homeland Security
                   Information Network and the Homeland Security Data Network.
                   We were also unable to verify the start dates provided to us by
                   DHS for all of the strategic guidance statements and the strategic
                   plans relating to the Radiological Attack and Biological Attack
                   scenarios.

                   We acknowledge the cooperation and courtesies extended to our
                   audit team during this audit. We conducted this performance audit
                   between October 2008 and May 2009 – we also updated
                   information contained in the report as of November 2009 – under
                   the authority of the Inspector General Act of 1978, as amended,
                   and in accordance with generally accepted government auditing
                   standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives.




                  DHS’ Progress in Federal Incident Management Planning 


                                         Page 20 

Appendix B
Management Comments to the Draft Report

                                                                       U.S. Department of Homeland Security
                                                                       500 C Street, SW
                                                                       Washington, DC 20472




 MEMORANDUM FOR:            Matt Jadacki
                            Deputy Inspector General
                            Office of Emergency Management Oversight
                            Office of Inspector General

 FROM:                      David J. Kaufman        l    J::, . . . ./-.~.{~1.
                            Director                V~ \~l
                            Office of Policy and Program Analysis

 SUBJECT:                   Federal Emergency Management Agency's (FEMA's)
                            Response to Office ofinspector General (OIG) Report on
                            DHS Progress in Federal Incident Management Planning

 FEMA has reviewed the subject report. We concur with the recommendations and have
 no further comments.

 Please contact Brad Shefka, Chief, FEMA GAO/OIG Liaison, at 202-646-1308 if you
 have any questions or concerns.




                                                                       www.fema.gov



                     DHS’ Progress in Federal Incident Management Planning 


                                            Page 21
 

Appendix B
Management Comments to the Draft Report

                                                                     Office a/Operations Coordinalion
                                                                     and Planning
                                                                     U.S. Department of Homeland Seeurity
                                                                     Washington. DC 20528

                                                                    Homeland
                                                                    Security
                                  NOV 062009

 MEMORANDUM FOR:                Matt Jadacki
                                Deputy Inspector Ge?lrFl k      br»J'Y
 FROM:                          John C. Act~ c...1VJ"
                                Director of 0ff~ti~ns Coordination and Planning

 SUBJECT:                       Inspector General Report on "DHS' Progress in Federal Incident
                                Management Planning" Response

 BACKGROUND:

 The Office of Operations Coordination and Planning (OPS) Plans Division appreciates the
 opportunity to comment on the draft DHS Office ofInspector General (010) Report on "DHS'
 Progress in Federal Incident Management Planning."

 The mission of OPS is to integrate departmental- and strategic-level interagency planning and
 operations coordination in order to prevent, protect, respond to, and recover from terrorist
 threats/attacks or natural disasters. OPS, facilitates the development of Federal strategic plans
 and operations plans in accordance with the process described in the Integrated Planning System.

 OPS, in collaboration with the Domestic Readiness Group, has endorsed the Incident
 Management Planning Team (IMPT) since August 21,2006. The IMPT provides a unified
 interagency planning effort for incidents requiring a coordinated national response. The IMPT
 also supports the development of strategic guidance, concepts, plans, and plan refinement
 leading to publication of a series of plans for actual or potential domestic incidents.

 In order to fully represent the entirety of its planning efforts, OPS would like to provide the
 following comments on the OIG draft report. '




                                       UNCLASSIFIED/It'6tf&




                        DHS’ Progress in Federal Incident Management Planning 


                                               Page 22
 

Appendix B
Management Comments to the Draft Report
 DISCUSSION:

 OIG Recommendation #1. Oversee the development a/interagency operations plans and
 collaborate with FEMA 's Operational Planning Branch and provide guidance to federal
 department and agencies to facilitate the incorporation ofperformance and effectiveness
 measures into opera/ional plans.

 The Integrated Planning System (IPS) is currently under a review process that will address the
 need to require operations plans to incorporate performance and effectiveness measures. At this
 time, the IPS does not require operations plans to address performance and effectiveness
 measures.

 Operations plans arc department- and agency-specific and are not interagency plans. There is
 currently no authority or statute that requires Federal departments and agencies to coordinate
 their operations plans with DHS or any other department/agency.

 OIG Recommendation #2. Enlist and resourc~, as appropriate, federal departments and
 agencies that have coordinating roles for the Chemical Attack, Cyber Attack, and Pandemic
 Influenza scenarios, in order to pursue planning efforts for each scenario concurrently.

 Through the Incident Management Planning Team (IMPT), OPS enlists interagency delailees
 and subject matter experts from Federal departments and agencies with a role in homeland
 security. From the beginning of plan development, our interagency partners within the IMPT are
 invited to participate to CnsUfC their interests are strongly represented.

 However, there are a limited number of planners available in Federal agencic!> with Emergency
 Support Function coordinating roles for chemical, cyber, and pandemic influenza scenarios. A
 discussion on further increasing the roles and the planning capabilities of our interagency
 partners is an integral component of the Quadrennial Homeland Security Review and the
 Homeland Security Presidential Directive 8 (HSPO-8) review.

  OIG Recommendation #3. Develop procedures and protocolsfor expanding access to the
 federal incident management plan repository to all appropriate homeland security stakeholders,
  including state, tribal and local governments and the private sector.

 OPS is cUlTently in the process of increasing membership to the Federal incident
 management plan repository to include all appropriate homeland security stakeholders.

 ADDITIONAL COMMENTS:

 In addition to the above review of the rl-commcndations within this report, OPS notes that some
 docwncntation be updated, such as times, dates, and authorities. OPS requests that these
 portions of the document be revised and suggests these revisions may influence one or more
 recommendations. Attached to this memo is a comment matrix for your consideration.

                                      UNCLASSIFIEO!ff'6ti&




                       DHS’ Progress in Federal Incident Management Planning 


                                              Page 23
 

Appendix B
Management Comments to the Draft Report

 It is also worth noting that planning has been put on hold since July 2009 due to an HSPD-8
 Review by the Domestic Readiness Group and the National Security Council. This has resulted
 in a delay in the development of.the Chemical Strategic Plan and the Natural Disaster Strategic
 Guidance Statement.




 Enclosures:
        Attachment I - A Previous Plan Development Timeline
        Attachment 2 - A Comment Matrix




                                      UNCl.ASSIFJEDIwetf&




                       DHS’ Progress in Federal Incident Management Planning 


                                              Page 24
 

Appendix C
Overview of the National Planning Scenarios

Scenario 1: Nuclear Detonation – Improvised Nuclear Device
   �	 Members of a terrorist organization have detonated a 10-kiloton improvised
      nuclear device in a heavily populated metropolitan area. The initial detonation
      causes total infrastructure damage in a 3-mile radius and various levels of
      radiation spanning out 3,000 square miles. As casualties climb in excess of
      several hundred thousand, hundreds of thousands of survivors either shelter in
      place or are forced onto the city’s transportation system to seek shelter in safe
      areas or evacuate the city. The city is now facing hundreds of billions of dollars
      in damage and a recovery effort that will take years.

Scenario 2: Biological Attack – Aerosol Anthrax
   �	 Two individuals release 100 liters of aerosolized anthrax into the air of a major
      metropolitan city. More than 330,000 people are exposed to the anthrax spores.
      Casualties and injuries resulting from the inhaled anthrax and subsequent
      infection reach upwards of 13,000 people. The economic costs associated with
      the closure and decontamination of affected areas may run in the billions of
      dollars, and the city will likely face a recovery effort that will take months.

Scenario 3: Biological Disease Outbreak – Pandemic Influenza
   �	 A new strain of avian influenza has spread to the United States. Estimates predict
      that fatalities could range anywhere between 209,000 and 1.9 million people, with
      an even greater number requiring hospitalization. Hospital bills alone could reach
      upwards of $180 billion.

Scenario 4: Biological Attack – Pneumonic Plague
   �	 Members of a terrorist organization manufacture the causative agent of plague
      and disseminate it in several metropolitan areas using biological warfare
      dissemination devices. Approximately 36 hours after release, patients begin
      showing up at hospitals with rapidly progressing and severe respiratory illnesses.
      Estimates predict that fatalities could range upwards of 9,500 people with
      approximately 28,383 people becoming ill. As word gets out that pneumonic
      plague is spreading, hospitals will see an influx of people crowding into
      emergency rooms, possibly creating a shortage of available beds.

Scenario 5: Chemical Attack – Blister Agent
   �	 Members of a terrorist organization use a lightweight aircraft to spray Agent
      Yellow, which is a mixture of two blister agents that can cause permanent damage
      to the respiratory system if inhaled and severe burns to the eyes or skin, into a
      crowded college football stadium. Thousands are injured and many are killed as
      people flee from the contaminated stadium. Additional injuries and fatalities will
      occur as a result of contact with the blister agent. Tens of thousands of people
      will need decontamination, as well as both short-term and long-term care.




                     DHS’ Progress in Federal Incident Management Planning

                                           Page 25
Appendix C
Overview of the National Planning Scenarios
Scenario 6: Chemical Attack – Toxic Industrial Chemicals
   �	 Sleeper cells of a domestic terrorist organization have launched a multiphase
      attack at a port and a nearby petroleum refinery. Utilizing vehicle-borne
      improvised explosive devices, the terrorists target a U.S. Coast Guard facility and
      two container ships containing hazardous material. The terrorists initiate the
      second phase of the attack by launching rocket-propelled grenades into the center
      of the petroleum refinery. Several hundred people are killed, thousands are
      injured, and thousands more are forced to evacuate or shelter in place as a result
      of the explosions, fires, and vapor plume. Recovery efforts will likely take
      months and the economic impact will likely be in the billions.

Scenario 7: Chemical Attack – Nerve Agent
   �	 Members of a terrorist organization have acquired the nerve agent sarin and have
      released it into the ventilation system of a large office building in a metropolitan
      area. The agent quickly kills 95% of the building’s 6,000 occupants. Even more
      injuries and deaths occur as first responders arrive on the scene unaware of the
      current conditions. As the nerve agent escapes the building, almost 50,000 people
      located in adjacent buildings are forced to shelter in place. Recovery time will
      likely be 3 to 4 months, with the total economic impact reaching upwards of
      $300 million.

Scenario 8: Chemical Attack – Chlorine Tank Explosion
   �	 Members of a terrorist organization have detonated an explosive device on a
      60,000-gallon storage tank filled with liquefied chlorine gas. The terrorists have
      also planted improvised explosive devices, set to detonate at varying intervals,
      close to the tank in order to harm emergency responders. Within an hour, there
      are almost 10,000 people crowding into emergency rooms with severe respiratory
      difficulties. As the gas continues to move downwind, as many as 35,000 people,
      or 5% of those in the affected area, are exposed to potentially lethal doses of
      chlorine gas. Recovery will take several weeks and likely cost millions of dollars.

Scenario 9: Natural Disaster – Major Earthquake
   �	 A major metropolitan area, with a population of almost 10 million people,
      experiences a 7.5 magnitude earthquake followed shortly by an 8.0 magnitude
      earthquake. In the area within 25 miles of the fault, many homes and buildings
      are completely destroyed. Approximately 1,400 people are killed, 100,000 more
      are crowding into hospital emergency rooms, and an intense search and rescue for
      an estimated 20,000 people has been launched. Recovery efforts are expected to
      range from several months to several years, and the estimated total economic
      impact is projected to be in the billions.




                     DHS’ Progress in Federal Incident Management Planning 


                                            Page 26 

Appendix C
Overview of the National Planning Scenarios
Scenario 10: Natural Disaster – Major Hurricane
   �	 A category 5 hurricane, with sustained wind speeds in excess of 160 miles per
      hour and a storm surge 20 feet higher than normal, makes landfall at a major
      metropolitan area. The storm surge, heavy winds, and subsequent tornados
      spawned by the hurricane cause destruction to nearly 200,000 homes and result in
      nearly 1,000 fatalities. With such a wide path of destruction, recovery from the
      hurricane will likely take several months to a couple of years with the total
      economic impact reaching into the billions.

Scenario 11: Radiological Attack – Radiological Dispersal Devices
   �	 Members of a terrorist organization have manufactured and detonated a
      radiological dispersal device or a “dirty bomb” in three regionally close, moderate
      to large cities. Each explosion causes significant damage to many of the buildings
      and structures in the immediate area of the blast. At each site, there are
      approximately 180 deaths and upwards of 20,000 detectable contaminations.
      Recovery efforts will likely take several months to a couple of years. Total
      economic loss will be in the billions of dollars.

Scenario 12: Explosives Attack – Terrorist Use of Explosives
   �	 Members of a terrorist organization have carried out a multipronged attack using
      improvised explosive devices at a large urban entertainment/sports venue. Three
      suicide bombers detonated their devices, killing and injuring some people and
      sending the rest of the large crowd in a frantic rush to the exits, where they are
      met by the detonation of a large vehicle bomb. Similar detonations also occur
      near a crowded public transportation concourse, a parking lot, and inside the
      lobby of the nearest hospital emergency room. The explosions combine to cause
      millions of dollars in damage and to kill approximately 100 people. Recovery
      efforts will take weeks.

Scenario 13: Biological Attack – Food Contamination
   �	 A member of a terrorist organization, who works at a meat processing plant on the
      West Coast, contaminates the meat with anthrax. Two contaminated batches of
      ground beef were sent to two different states. In a 10-day span, hospitals on the
      West Coast begin to see a sudden influx of people with gastrointestinal problems.
      Upwards of 1,800 have become ill and there have been 500 fatalities. Recovery
      efforts to address contamination sites and provide for those who have become ill
      will take millions of dollars and likely last for several weeks.

Scenario 14: Biological Attack – Foreign Animal Disease
   �	 Members of a terrorist organization have launched a biological attack on the
      agricultural industry by infecting livestock at various transportation sites with a
      foreign animal disease. Farmers in several states quickly realize that many of
      their animals are ill. As it is realized that a foreign animal disease is spreading,
      recovery efforts will likely take weeks and require hundreds of millions of dollars
      to diagnose, quarantine, destroy, and dispose of livestock herds.


                     DHS’ Progress in Federal Incident Management Planning

                                           Page 27
Appendix C
Overview of the National Planning Scenarios


Scenario 15: Cyber Attack
   �	 Members of a terrorist organization launch a cyber attack against critical
      infrastructures that rely on the Internet. Service disruptions occur across many
      sectors and there is a general fear that there will be a loss of confidence in the
      Internet and the services it provides. Recovery efforts will likely take months and
      cost upwards of several hundred million dollars.




                     DHS’ Progress in Federal Incident Management Planning 


                                            Page 28 

Appendix D
Federal Interagency Providing Operations Plans for Scenario 12


  National Planning Scenario                       Department or Agency           Final




   Terrorist Use of Explosives




                        DHS’ Progress in Federal Incident Management Planning 


                                               Page 29
 

Appendix E
Incident Management Planning Team


Core Full-Time Members                      On-Call Members
� DHS, Chair                                � Department of State
� Department of Defense                     � Department of Treasury
� Department of Justice                     � Department of Commerce
  o Federal Bureau of Investigation         � Department of the Interior
� Department of Health and Human            � Department of Agriculture
    Services                                � Department of Labor
�   Department of Transportation            � Department of Housing and Urban
�   Department of Energy                      Development
�   Environmental Protection Agency         � Department of Education
�   American Red Cross                      � Department of Veterans Affairs
                                            � Federal Communications Commission
                                            � General Services Administration
                                            � National Aeronautics and Space
                                              Administration
                                            � Nuclear Regulatory Commission
                                            � Office of the Director of National Intelligence
                                            � Office of Personnel Management
                                            � Small Business Administration
                                            � United States Postal Service
                                            � White House Office of Science and
                                              Technology Policy
Source: Charter for the Incident Management Planning Team, August 21, 2006




                       DHS’ Progress in Federal Incident Management Planning 


                                              Page 30 

Appendix F
Major Contributors to This Report

                   Norman Brown, Director, Preparedness and Mitigation Division,
                   Office of Emergency Management Oversight

                   Soraya Vega, Auditor-in-Charge, Preparedness and Mitigation
                   Division, Office of Emergency Management Oversight

                   Adrian Dupree, Supervisory Auditor, Preparedness and Mitigation
                   Division, Office of Emergency Management Oversight

                   Ryan Hartong, Program Analyst, Preparedness and Mitigation
                   Division, Office of Emergency Management Oversight




                   DHS’ Progress in Federal Incident Management Planning 


                                          Page 31 

Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      DHS Audit Liaison
                      FEMA Audit Liaison (DP9P03)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee, as
                      appropriate




             DHS’ Progress in Federal Incident Management Planning

                                      Page 32
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
